 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




    BLUE CROSS BLUE SHIELD
ASSOCIATION DID NOT CLAIM SOME
   ALLOWABLE PENSION COSTS
       FOR FISCAL YEARS
      1997 THROUGH 2010


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                       February 2013
                                                       A-07-13-00411
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield Association (the Association) administers Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine whether the pension costs claimed by the Association for
Medicare reimbursement for fiscal years (FY) 1997 through 2010 were allowable and correctly
claimed.

SUMMARY OF FINDING

The Association claimed no pension costs for Medicare reimbursement for FYs 1997 through
2010; however, we determined that the allowable CAS-based pension costs during this period
were $351,223. Thus, the Association did not claim $351,223 of allowable Medicare pension
costs on its final administrative cost proposals (FACP) for FYs 1997 through 2010. This
underclaim occurred primarily because the Association did not request reimbursement for its
“Other” segment CAS pension costs.

RECOMMENDATION

We recommend that the Association revise its FACPs to claim the additional allowable Medicare
pension costs of $351,223.

AUDITEE COMMENTS

In written comments on our draft report, the Association accepted our recommendation and
described corrective actions that it planned to implement.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield Association and Medicare ................................................ 1
              Medicare Reimbursement of Pension Costs ........................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 1
               Objective ................................................................................................................. 1
               Scope ....................................................................................................................... 1
               Methodology ........................................................................................................... 2

FINDING AND RECOMMENDATION .................................................................................... 2

          FEDERAL REQUIREMENTS ........................................................................................... 2

          ALLOWABLE PENSION COSTS NOT CLAIMED ........................................................ 3

          RECOMMENDATION ...................................................................................................... 4

          AUDITEE COMMENTS.................................................................................................... 4

APPENDIXES

    A: ALLOWABLE MEDICARE PENSION COSTS FOR
       BLUE CROSS BLUE SHIELD ASSOCIATION
       FOR FISCAL YEARS 1997 THROUGH 2010

    B: AUDITEE COMMENTS




                                                                     ii
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield Association and Medicare

Blue Cross Blue Shield Association (the Association) administers Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS-based pension costs and allocates a
share to Medicare. Under the separate calculation method, the contractor separately identifies
the pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the pension costs claimed by the Association for
Medicare reimbursement for FYs 1997 through 2010 were allowable and correctly claimed.

Scope

We verified that the Association claimed no pension costs for Medicare reimbursement on its
final administrative cost proposals (FACP) for FYs 1997 through 2010, then reviewed
information provided by the Association and its actuarial consulting firms (see “Methodology”)
to identify any allowable pension costs.

Achieving our objective did not require that we review the Association’s overall internal control
structure. We reviewed the internal controls related to the pension costs that were, or could have
been, claimed for Medicare reimbursement to ensure that those costs were allocable in
accordance with the CAS and allowable in accordance with the FAR.

We performed fieldwork at the Association’s office in Chicago, Illinois, during April and May
2012.



                                                1
Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit.
Additionally, we reviewed information provided by the Association to identify the amount of
pension costs claimed for Medicare reimbursement for FYs 1997 through 2010. We also
determined the extent to which the Association funded CAS-based pension costs with
contributions to the pension trust fund and accumulated prepayment credits. We based our
calculations on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment. The CMS Office of the Actuary calculated the allocable pension costs based
on the CAS and on the results of our segmentation review (Blue Cross Blue Shield Association
Understated the Medicare Segment Pension Assets for the Period of January 1, 1997, to
January 1, 2011, A-07-13-00410).

In our review, we used information that the Association’s actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined the Association’s accounting
records, pension plan documents, annual actuarial valuation reports, and Department of
Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

The Association claimed no pension costs for Medicare reimbursement for FYs 1997 through
2010; however, we determined that the allowable CAS-based pension costs during this period
were $351,223. Thus, the Association did not claim $351,223 of allowable Medicare pension
costs on its FACPs for FYs 1997 through 2010. This underclaim occurred primarily because the
Association did not request reimbursement for its “Other” segment CAS pension costs.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.



                                               2
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

The Association submitted Medicare pension costs of $0 for Medicare reimbursement on its
FACPs for FYs 1997 through 2010. We calculated the allowable Medicare pension costs based
on separately computed CAS-based pension costs for the Medicare segment and the “Other”
segment in accordance with CAS 412 and 413. We determined that the allowable CAS-based
pension costs for FYs 2003 through 2010 were $351,223.

Thus, the Association did not claim $351,223 of allowable Medicare pension costs on its FACPs
for FYs 1997 through 2010. This underclaim occurred primarily because the Association did not
request reimbursement for its “Other” segment CAS pension costs.

The table below compares allowable CAS-based pension costs with the pension costs claimed on
the Association’s FACPs. Appendix A contains additional details on allowable pension costs.

        Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                    Allowable Claimed by
                    Fiscal Year     Per Audit Association        Difference
                       1997                 $0         $0                $0
                       1998                  0          0                 0
                       1999                  0          0                 0
                       2000                  0          0                 0
                       2001                  0          0                 0
                       2002                  0          0                 0
                       2003                  0          0                 0
                       2004                  0          0                 0
                       2005             35,024          0            35,024
                       2006             45,374          0            45,374
                       2007             45,751          0            45,751
                       2008             50,848          0            50,848
                       2009             79,205          0            79,205
                       2010             95,021          0            95,021
                       Total          $351,223         $0          $351,223

The Medicare contracts require the Association to calculate pension costs for Medicare
reimbursement in accordance with CAS 412 and 413. The Association based its claim for
Medicare reimbursement on CAS-based pension costs. However, because the Association
incorrectly assumed that the “Other” segment allocable CAS pension costs related only to its
Federal Employee Program, it understated those CAS-based pension costs. We determined that

                                                3
costs related to the Medicare contracts were included in the “Other” segment CAS-based pension
costs. Accordingly, the Association did not claim $351,223 of allowable pension costs.

RECOMMENDATION

We recommend that the Association revise its FACPs to claim the additional allowable Medicare
pension costs of $351,223.

AUDITEE COMMENTS

In written comments on our draft report, the Association accepted our recommendation and
described corrective actions that it planned to implement.

The Association’s comments are included in their entirety as Appendix B.




                                              4
APPENDIXES
                                                                                           Page 1 of 6
                         APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR

                                BLUE CROSS BLUE SHIELD ASSOCIATION

                                 FOR FISCAL YEARS 1997 THROUGH 2010


                                                      Total     "Other"        Medicare      Total
     Date                    Description             Company    Segment        Segment      Medicare

     1996         Allocable Pension Cost        1/                        $0          $0

     1997         Contributions                            $0         $0              $0
                  Discount for Interest                    $0         $0              $0
January 1, 1997   Present Value Contributions              $0         $0              $0
                  Prepayment Credit Applied                $0         $0              $0
                  Present Value of Funding                 $0         $0              $0

January 1, 1997   CAS Funding Target                       $0          $0             $0
                  Percentage Funded                                 0.00%          0.00%
                  Funded Pension Cost                                  $0             $0
                  Allowable Interest                                   $0             $0
                  Allocable Pension Cost                               $0             $0
     1997         Fiscal Year Pension Costs                            $0             $0
                  Medicare LOB* Percentage                          0.00%          0.00%

                  Allowable Pension Cost                              $0              $0             $0

     1998         Contributions                            $0         $0              $0
                  Discount for Interest                    $0         $0              $0
January 1, 1998   Present Value Contributions              $0         $0              $0
                  Prepayment Credit Applied                $0         $0              $0
                  Present Value of Funding                 $0         $0              $0

January 1, 1998   CAS Funding Target                       $0          $0             $0
                  Percentage Funded                                 0.00%          0.00%
                  Funded Pension Cost                                  $0             $0
                  Allowable Interest                                   $0             $0
                  Allocable Pension Cost                               $0             $0
     1998         Fiscal Year Pension Costs                            $0             $0
                  Medicare LOB* Percentage      2/                  1.98%         40.96%

                  Allowable Pension Cost                              $0              $0             $0

     1999         Contributions                            $0         $0              $0
                  Discount for Interest                    $0         $0              $0
January 1, 1999   Present Value Contributions              $0         $0              $0
                  Prepayment Credit Applied                $0         $0              $0
                  Present Value of Funding                 $0         $0              $0

January 1, 1999   CAS Funding Target                       $0          $0             $0
                  Percentage Funded                                 0.00%          0.00%
                  Funded Pension Cost                                  $0             $0
                  Allowable Interest                                   $0             $0
                  Allocable Pension Cost                               $0             $0
     1999         Fiscal Year Pension Costs                            $0             $0
                  Medicare LOB* Percentage                          1.66%         94.75%

                  Allowable Pension Cost                              $0              $0             $0
                                                                                   Page 2 of 6



                                                 Total     "Other"     Medicare      Total
     Date                    Description        Company    Segment     Segment      Medicare

     2000         Contributions                       $0         $0           $0
                  Discount for Interest               $0         $0           $0
January 1, 2000   Present Value Contributions         $0         $0           $0
                  Prepayment Credit Applied           $0         $0           $0
                  Present Value of Funding            $0         $0           $0

January 1, 2000   CAS Funding Target                  $0          $0          $0
                  Percentage Funded                            0.00%       0.00%
                  Funded Pension Cost                             $0          $0
                  Allowable Interest                              $0          $0
                  Allocable Pension Cost                          $0          $0
     2000         Fiscal Year Pension Costs                       $0          $0
                  Medicare LOB* Percentage                     1.48%      98.12%

                  Allowable Pension Cost                         $0           $0             $0

     2001         Contributions                       $0         $0           $0
                  Discount for Interest               $0         $0           $0
January 1, 2001   Present Value Contributions         $0         $0           $0
                  Prepayment Credit Applied           $0         $0           $0
                  Present Value of Funding            $0         $0           $0

January 1, 2001   CAS Funding Target                  $0          $0          $0
                  Percentage Funded                            0.00%       0.00%
                  Funded Pension Cost                             $0          $0
                  Allowable Interest                              $0          $0
                  Allocable Pension Cost                          $0          $0
     2001         Fiscal Year Pension Costs                       $0          $0
                  Medicare LOB* Percentage                     1.64%      99.26%

                  Allowable Pension Cost                         $0           $0             $0

     2002         Contributions                       $0         $0           $0
                  Discount for Interest               $0         $0           $0
January 1, 2002   Present Value Contributions         $0         $0           $0
                  Prepayment Credit Applied           $0         $0           $0
                  Present Value of Funding            $0         $0           $0

January 1, 2002   CAS Funding Target                  $0          $0          $0
                  Percentage Funded                            0.00%       0.00%
                  Funded Pension Cost                             $0          $0
                  Allowable Interest                              $0          $0
                  Allocable Pension Cost                          $0          $0
     2002         Fiscal Year Pension Costs                       $0          $0
                  Medicare LOB* Percentage                     1.44%      98.11%

                  Allowable Pension Cost                         $0           $0             $0
                                                                                              Page 3 of 6


                                                       Total        "Other"       Medicare      Total
     Date                    Description              Company       Segment       Segment      Medicare

     2003         Contributions                              $0            $0            $0
                  Discount for Interest                      $0            $0            $0
January 1, 2003   Present Value Contributions                $0            $0            $0
                  Prepayment Credit Applied                  $0            $0            $0
                  Present Value of Funding                   $0            $0            $0

January 1, 2003   CAS Funding Target                         $0             $0           $0
                  Percentage Funded                                      0.00%        0.00%
                  Funded Pension Cost                                       $0           $0
                  Allowable Interest                                        $0           $0
                  Allocable Pension Cost                                    $0           $0
     2003         Fiscal Year Pension Costs                                 $0           $0
                  Medicare LOB* Percentage                               1.17%       91.55%

                  Allowable Pension Cost                                   $0            $0             $0

     2004         Contributions                  3/   $5,000,000    $5,000,000           $0
                  Discount for Interest          4/    ($391,705)    ($391,705)          $0
January 1, 2004   Present Value Contributions    5/   $4,608,295    $4,608,295           $0
                  Prepayment Credit Applied                   $0            $0           $0
                  Present Value of Funding       6/   $4,608,295    $4,608,295           $0

January 1, 2004   CAS Funding Target                         $0             $0           $0
                  Percentage Funded                                      0.00%        0.00%
                  Funded Pension Cost                                       $0           $0
                  Allowable Interest                                        $0           $0
                  Allocable Pension Cost                                    $0           $0
     2004         Fiscal Year Pension Costs                                 $0           $0
                  Medicare LOB* Percentage                               1.04%       93.95%

                  Allowable Pension Cost                                   $0            $0             $0

     2005         Contributions                       $5,400,000    $5,400,000           $0
                  Discount for Interest                ($400,000)    ($400,000)          $0
January 1, 2005   Present Value Contributions         $5,000,000    $5,000,000           $0
                  Prepayment Credit Applied      7/   $4,405,482    $4,405,482           $0
                  Present Value of Funding            $9,405,482    $9,405,482           $0

January 1, 2005   CAS Funding Target             8/   $4,405,482    $4,405,482           $0
                  Percentage Funded              9/                    100.00%        0.00%
                  Funded Pension Cost           10/                 $4,405,482           $0
                  Allowable Interest            11/                         $0           $0
                  Allocable Pension Cost                            $4,405,482           $0
     2005         Fiscal Year Pension Costs     12/                 $3,304,112           $0
                  Medicare LOB* Percentage                               1.06%       93.13%

                  Allowable Pension Cost        13/                   $35,024            $0       $35,024
                                                                                          Page 4 of 6


                                                 Total          "Other"       Medicare      Total
     Date                    Description        Company         Segment       Segment      Medicare

     2006         Contributions                  $3,200,000     $3,200,000           $0
                  Discount for Interest           ($237,037)     ($237,037)          $0
January 1, 2006   Present Value Contributions    $2,962,963     $2,962,963           $0
                  Prepayment Credit Applied      $4,348,694     $4,348,694           $0
                  Present Value of Funding       $7,311,657     $7,311,657           $0

January 1, 2006   CAS Funding Target             $4,348,694     $4,348,694           $0
                  Percentage Funded                                100.00%        0.00%
                  Funded Pension Cost                           $4,348,694           $0
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                        $4,348,694           $0
     2006         Fiscal Year Pension Costs                     $4,362,891           $0
                  Medicare LOB* Percentage                           1.04%       92.28%

                  Allowable Pension Cost                          $45,374            $0       $45,374

     2007         Contributions                 $12,000,000    $12,000,000           $0
                  Discount for Interest           ($888,889)     ($888,889)          $0
January 1, 2007   Present Value Contributions   $11,111,111    $11,111,111           $0
                  Prepayment Credit Applied      $5,028,856     $5,028,856           $0
                  Present Value of Funding      $16,139,967    $16,139,967           $0

January 1, 2007   CAS Funding Target             $5,172,812     $5,172,812           $0
                  Percentage Funded                                100.00%        0.00%
                  Funded Pension Cost                           $5,172,812           $0
                  Allowable Interest                                $8,158           $0
                  Allocable Pension Cost                        $5,180,970           $0
     2007         Fiscal Year Pension Costs                     $4,972,901           $0
                  Medicare LOB* Percentage                           0.92%       82.49%

                  Allowable Pension Cost                          $45,751            $0       $45,751

     2008         Contributions                 $20,000,000    $20,000,000           $0
                  Discount for Interest         ($1,481,481)   ($1,481,481)          $0
January 1, 2008   Present Value Contributions   $18,518,519    $18,518,519           $0
                  Prepayment Credit Applied      $6,540,916     $6,540,916           $0
                  Present Value of Funding      $25,059,435    $25,059,435           $0

January 1, 2008   CAS Funding Target             $6,540,916     $6,540,916           $0
                  Percentage Funded                                100.00%        0.00%
                  Funded Pension Cost                           $6,540,916           $0
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                        $6,540,916           $0
     2008         Fiscal Year Pension Costs                     $6,200,930           $0
                  Medicare LOB* Percentage                           0.82%       90.43%

                  Allowable Pension Cost                          $50,848            $0       $50,848
                                                                                                                     Page 5 of 6


                                                                  Total            "Other"          Medicare           Total
        Date                       Description                   Company           Segment          Segment           Medicare

        2009            Contributions                           $20,000,000       $20,000,000                $0
                        Discount for Interest                   ($1,481,481)      ($1,481,481)               $0
   January 1, 2009      Present Value Contributions             $18,518,519       $18,518,519                $0
                        Prepayment Credit Applied               $10,244,046       $10,244,046                $0
                        Present Value of Funding                $28,762,565       $28,762,565                $0

   January 1, 2009      CAS Funding Target                      $10,244,046       $10,244,046                $0
                        Percentage Funded                                             100.00%             0.00%
                        Funded Pension Cost                                       $10,244,046                $0
                        Allowable Interest                                                 $0                $0
                        Allocable Pension Cost                                    $10,244,046                $0
        2009            Fiscal Year Pension Costs                                  $9,318,264                $0
                        Medicare LOB* Percentage                                        0.85%            90.21%

                        Allowable Pension Cost                                        $79,205                $0           $79,205

        2010            Contributions                           $14,000,000       $14,000,000                $0
                        Discount for Interest                     ($976,744)        ($976,744)               $0
   January 1, 2010      Present Value Contributions             $13,023,256       $13,023,256                $0
                        Prepayment Credit Applied               $11,490,577       $11,490,577                $0
                        Present Value of Funding                $24,513,833       $24,513,833                $0

   January 1, 2010      CAS Funding Target                      $11,490,577       $11,490,577                $0
                        Percentage Funded                                             100.00%             0.00%
                        Funded Pension Cost                                       $11,490,577                $0
                        Allowable Interest                                                 $0                $0
                        Allocable Pension Cost                                    $11,490,577                $0
        2010            Fiscal Year Pension Costs                                 $11,178,944                $0
                        Medicare LOB* Percentage                                        0.85%            91.29%

                        Allowable Pension Cost                                        $95,021                $0           $95,021


  * Line of business.

ENDNOTES

1/ The allocable Cost Accounting Standards (CAS) pension cost is the amount of pension cost that may be allocated for contract
   cost purposes. We determined the 1996 calendar year allocable pension cost from prior audit workpapers.

2/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB)
   percentage of each segment. We determined the Medicare LOB percentages based upon information provided by Blue Cross
   Blue Shield Association.

3/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
   contributions included deposits made during the plan year (PY) and accrued contributions deposited after the end of the PY but
   within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the
   pension segmentation review (A-07-13-00410). The amounts shown for the “Other” segment represent the difference between
   the Total Company and the Medicare segment.
                                                                                                                           Page 6 of 6




 4/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount
    the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the
    difference between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

 5/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
    PY. For purposes of this Appendix, we deemed deposits made after the end of the PY to have been made on the final day of the
    PY, consistent with the method mandated by the Employee Retirement Income Security Act used prior to the implementation of
    the Pension Protection Act.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the PY.

 7/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is 

    created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, 

    with interest, to fund future CAS pension costs.


 8/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal 

    Acquisition Regulation (FAR) 31.205-6(j)(2)(i). 


 9/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because 

    any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1) (as 

    amended), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding 

    divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal 

    places.

10/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

11/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as
    the interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with
    FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding
    target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

12/ We converted the allocable pension cost to a fiscal year (FY) basis (October 1 through September 30). We calculated the FY
    pension costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

13/ We computed the allowable Medicare pension cost as an FY pension cost multiplied by the Medicare LOB percentage. Pursuant
    to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare
    segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.
                      APPENDIX B: AUDITEE COMMENTS




                                                                                         BlueCross BlueSWeld
                                                                                         Association
                                                                                         AJJ AssocL~tlon or Independent
                                                                                         llluc Co"ss ru>d Blue Shield Plans
 January 29, 2013
                                                                                         225 North Michigan Avenue
 Mr. Patrick J. Cogley                                                                   Chicago, Illinois 60601-7680
 Regional Inspector General                                                              312.297.6000
                                                                                         f'ax 312.297.6609
 Office of Audit Services, Region VII                                                    www.RCRS.com
             1
 601 East12 h Street, Room 0429
 Kansas City, Missouri 64106

 RE: Report Number A-07-13-00411

 Dear Mr. Cogley:


In response to your letter dated January 3, 2013, regarding the Office of Inspector General (OIG), Office
of Audit Services draft audit report entitled "Blue Cross Blue Shield Association Did Not Claim Some
Allowable Pension Costs for Fiscal Years 1997 Through 2010, please be advised that the Blue Cross and
Blue Shield Association (Association) has accepted the OIG's audit recommentations and will undertake
the following steps to implement corrective action:


        FACPs for 2005 to 2010 are to be revised to claim the additional allowable Medicare pension
        costs of $351 ,223.


        Enhance accounting procedures to claim future CAS-based allowable pension costs attributable
        to the "Other" segment when those pension cost are funded.




   ctor. General Accounting
Corporate Finance

With attachment

Copies without attachment to:

Mitch Helfand, BCBSA                    Kevin Shanklin, BCBSA
Peter Kelly, BCBSA                      Jenenne Tambke, DHHS OIG
Sharon Keyes, BCBSA                     Jeffrey Wilson, DHHS OIG
Ed Sawica, BCBSA
